No. 21Derrick Grant,
Petitioner,
v.
United States of America,
Respondent.
DECLARATION VERIFYING TIMELY FILING

Petitioner, Derrick Grant, through undersigned counsel, and pursuant to SUP.
CT. R. 29.2, declares that the Petition for Writ of Certiorari filed in the above-styled
matter was placed in an envelope via third party commercial carrier postage and fees
paid via Federal Express, addressed to the Clerk of the Supreme Court of the United
States, on the 14th day of May 2021.

awvv„, Jine.oe_

Anna M. Greve
Taft Stettinius & Hollister LLP
425 Walnut Street, Suite 1800
Cincinnati, OH 45202
(513) 357-9634

agreve(e,Dtafilaw.com
CounselforPetitioner

